Appendix A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60582
Summary Calendar
WALTER C. LANGE
Petitioner - Appellant
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent - Appellee
Appeal from a Decision of the
United States Tax Court TC No. 11492-17
Before REAVLEY, JONES, and HIGGINSON, Circuit
Judges. PER CURIAM:*
Walter Lange appeals a decision of the Tax Court
penalizing him for frivolous tax submissions for tax
years 2009 and 2012 and sanctioning him for frivolous
litigation in the Tax Court itself. See 26 U.S.C. §§
6702(a), 6673(a). We review the underlying liability de
novo and the Tax Court’s sanctions for abuse of
discretion. Jones v. C.I.R., 338 F.3d 463, 466 (5th Cir.
2003). The Tax Court imposed the frivolous submission
penalties on Lange because he reported taxable pension
distributions on his tax forms but then asserted he had
no tax liability. These actions, coupled with Lange’s
“desire to delay or impede the administration of Federal
21

tax laws” evident from his baseless arguments against
tax liability, are sufficient to trigger penalties under §
6702. His arguments likewise justify the sanction
imposed by the Tax Court under § 6673. We neither
explain those arguments nor rebut them in detail, lest
we thereby “suggest that these arguments have some
colorable merit.” Crain u. C.I.R., 737 F.2d 1417, 1417
(5th Cir. 1984).
Because Lange has reiterated his sanctionable
arguments on appeal, the Commissioner asks us to
sanction Lange under 26 U.S.C. § 7482(c)(4) and Rule
38 of the Federal Rules of Appellate Procedure. We have
done so under similar circumstances. See Young u.
C.I.R., 551 F. App’x 229, 231 (5th Cir. 2014) (imposing a
sanction of $8,000); Stearman v. C.I.R., 436 F.3d 533,
540 (5th Cir. 2006) ($12,000); Wallis v. C.I.R., 203 F.
App’x 591, 594 (5th Cir. 2006) ($8,000). The
Commissioner seeks a sanction of $8,000, which we hold
is warranted under the circumstances.
The judgment of the Tax Court is AFFIRMED.
The Commissioner’s Motion for Sanctions is GRANTED.
* Pursuant to 5TH CIR. R. 47.5, the court has
determined that this opinion should not be published
and is not precedent except under the limited
circumstances set forth in 5th Cir. R. 47.5.4.

22

Appendix B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-60582

WALTER C. LANGE,
Petitioner - Appellant
v.
COMMISSIONER OF INTERNAL REVENUE
Respondent - Appellee

Appeal from a Decision of the
United States Tax Court

ON PETITION FOR REHEARING EN BANC
F.3rd

(Opinion - 1/24/19, 5 Cir.

23

Before REAVLEY, JONES, and HIGGINSON, Circuit
Judges.
PER CURIAM:

(/ ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Bank (FED. R. APP. P. And 5th
CIR. R. 35), the Petition for Rehearing En Banc is
DENIED.
(

) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. And 5th
CIR. R. 35), the Petition for Rehearing En Banc is
DENIED.

ENTERED FOR THE COURT:

/S/
UNITED STATES CIRCUIT JUDGE

24

Appendix C
UNITED STATES TAX.COURT
WASHINGTON, DC 20217
WALTER C. LANGE
Petitioner(s),
Docket No. 11492-17 L.

v.

COMMISSIONER OF INTERNAL REVENUE
Respondent.
ORDER
Pursuant to Rule 152(b), Tax Court Rules of
Practice and Procedure, it is
ORDERED that the Clerk of the Court shall
transmit herewith to petitioner and to respondent a
copy of the pages of the transcript of the trial in the
above case before Judge James S. Halpern at Dallas,
Texas, containing his oral findings of fact and opinion
rendered at the trial session at which the case was
heard.
In accordance with the oral findings of fact and
opinion, decision will be entered for respondent.
(Signed) James S. Halpern
Judge
Dated: Washington, D.C.
April 27, 2018

25

SERVED APR 27 2018
Bench Opinion by Judge James S. H.alpern
April 17, 2018
Walter C. Lange v. Commissioner of Internal Revenue
Docket No. 11492-17L
The Court has decided to render oral findings of
fact and opinion in this case, and the following
represents the Court's oral findings of fact and opinion.
The oral findings of fact and opinion shall not be
relied upon as precedent in any other case.
This .bench opinion is made pursuant to the
authority granted by section 7459(b) of the Internal
Revenue Code of 1986, as amended, and Rule 152 of the
Tax Court Rules of Practice and Procedure.
Unless otherwise indicated, all section references
are to the Internal Revenue code in effect for the years
in issue, and all Rule references are to the Tax Court
Rules of Practice and Procedure.
The parties have entered into a stipulation of
facts, which is incorporated herein by this reference. At
the time the petition was filed, petitioner lived in Texas.
This is a collection due process case under section
6330. By notice of determination dated May 2, 2017,
respondent determined to sustain notices of intent to
levy to collect from petitioner section 6702 frivolous
filing penalties assessed against petitioner for 2007,
2009, and 2012. Respondent concedes that no penalty is
26

due for 2007. He further concedes that only one penalty
is due for each of 2009 and 2012.
A civil penalty for filing frivolous returns may be
assessed against a taxpayer under section 6702(a) if
three requirements are met. First, the taxpayer must
file a document that purports to be an income tax
return. Second, the purported return must lack the
information needed to gauge the substantial correctness
of the self- assessment or contain information indicating
the self-assessment is substantially incorrect. Third, the
taxpayer's position must be frivolous or demonstrate a
desire to delay or impede the administration of Federal
income tax laws.
Respondent satisfied the first element by showing
that petitioner submitted documents for 2009 and 2012
that purported to be income tax returns, i.e., the Forms
1040 submitted for each year. Petitioner attached
Forms 4852 to each Form 1040, reporting, among other
amounts, gross distributions of $23,892.60 from
Employee Retirement System of Texas (System).
Respondent satisfied the second element as well.
The gross distributions from System are pension
amounts. Pension amounts are items of gross income
reportable on line 16a of Form 1040. Petitioner did not
report pension income on either Form 1040. Petitioner
attached explanations to his Forms 1040 stating that he
filed the Forms 4852 to correct errors by the payers
because he received no payments "which were connected
to the performance of the functions of a public office, or
otherwise constituted gains, profit or income within the
meaning of relevant law." Neither of the Forms 1040
27

contained information on which the substantial
correctness of the self-assessment might be determined.
Finally, respondent satisfied the third element by
showing that the purported returns reflect frivolous
positions. IRS Notice 2010-33, 2010 I.R.B. 609., includes
among its list of frivolous positions, positions that have
been determined to be frivolous in a published opinion
of the United States Tax Court. This Court has held
that incomplete returns showing $0 income items
attributable to incorrect Forms 4852 attached may be
subject to a frivolous return penalty. See, e.g.. Grunsted
v. Commissioner. 136 T.C. 455, 459 (2011).
Petitioner's argument that he has not seen
evidence of assessment of the penalties is without merit.
As we have said: Section 6330(c)(1) does not require the
Appeals officer to rely on any particular document in
satisfying the verification requirement and does not
require that the Appeals officer actually give the
taxpayer a copy of the verification upon which he or she
relied. Walker v. Commissioner. T.C. Memo. 2018-22.
Petitioner's argument that respondent may not
levy on him to collect taxes is also without merit. See
sec. 6331.(a). The present internal Revenue Code was
enacted by Congress in 1986. See Pub. L. 99-514, 100
Stat. 2085. Petitioner has failed to show that Revised
Statutes sec. 3185 (1876) has any relevance to this case.
Petitioner advanced meritless tax-protester
arguments to report zero wages on his purported
returns. We therefore find that petitioner is liable for

28

the frivolous return penalties under section 6702
because all of the elements have been met.
We now address .whether it is appropriate for us
to impose a penalty against petitioner on our own
motion under section 6673. We have warned petitioner
of this possibility in our order denying his motion for
summary judgment dated April. 9, 2018. That section
authorizes the Tax Court to require a taxpayer to pay to
the United States a penalty of up to $25,000 whenever
it appears that proceedings have been instituted or
maintained primarily for delay or that the taxpayer's
position in such proceedings is frivolous or groundless.
The purpose of section 6673, like that of section 6702, is
to compel taxpayers to think and to conform their
conduct to settled tax principles.
Petitioner's argument that, as a Texas resident,
he is not geographically within the United States for
purposes of Federal taxation is a frivolous argument,
needing no citation of authority to refute it.
Likewise, his argument that he is not a person
liable to pay tax within the meaning of section 6331 is
without merit.
Petitioner has burdened respondent and this
Court with his meritless challenges to the section 6702
penalty. We shall impose on petitioner a penalty under
section 6673(a)(1) of $2,500.
That concludes this bench opinion. (Whereupon,
at 12:55 p.m., the above-entitled matter was
concluded.)

29

UNITED STATES TAX.COURT
WASHINGTON, DC 20217
WALTER C. LANGE,
Petitioner(s),
Docket No. 11492-17 L.

v.

COMMISSIONER OF INTERNAL REVENUE,
Respondent.
DECISION
Pursuant to the Opinion of the Court as set forth
in the pages.of the transcript of the proceedings before
Judge Jatnes S. Halpern in Dallas, Texas on April 16,
2018, containing oral findings of fact and opinion, it is
ORDERED and DECIDED that the collection
action as determined in the Notice of Determination
Concerning Collection Action(s) under I.R.C. § 6320
and/or 6330 issued to petitioner on May 2, 2017, with
respect to civil penalties assessed against him for the
taxable year 2007 is not sustained;
That petitioner's-liability for the I.R.C. § 6702(a)
penalties assessed against him for the taxable year
2007 is as follows:
TAX YEAR
... 2007
2007. •

CIVIL PENALTY
I.R.C. § 6702(a)
$.0.00
$0.00.:

30

ASSESSMENT DATE
■ February 22,2016February 22,2016

f
That the collection action as determined in the
Notice of Determination Concerning Collection Action(s)
under I.R.C. § 6320 and/or 6330 issued to petitioner on
May 2, 2017, with respect to civil penalties assessed
against him for the taxable year 2009 is not sustained
as'to the February 22, 2016 assessment (comprised of
two $5,000 civil penalties) but is sustained as to the
April 25, 2016 assessment;
That petitioner's liability for the I.R.C. § 6702(a)
penalties assessed against him for the taxable year
2009 is as follows:
TAX YEAR
2009
2009

CIVIL PENALTY;
: . I.R.CV§ 6702(a)
$0:00
■
■ ' $5,000.00

ASSESSMENT DATE
February 22,2016
April 25,2016

That the collection action as determined in the
Notice of Determination Concerning Collection Action(s)
under I.R.C. § 6320 and/or 6330 issued to petitioner on
May 2,.2017, with respect to the civil penalty assessed
against him for the taxable year 2012 is sustained;
That petitioner's liability for the I.R.C. § 6702(a)
penalty assessed against him for the taxable year 2012
is as follows:
TAX. YEAR
2012

CIVIL PENALTY
I.R.C. § 6702(a)
$5,000.00

ASSESSMENT DATE
June 20,2016

That petitioner is liable for a penalty under
I.R.C. § 6673(a)(1) in the amount of $2,500.00.
James S. Halpern, Judge Entered: APR 27 2018
31

